i

CERTIFICATE OF SERVICE
I, Karen V. McIntyre, do certify that on this date, April 16,2021, as required by U.S. Supreme
Court Rule 29, one copy of this Writ of Certiorari was served on each party to the above
proceeding or that party’s counsel, and on every other person required to be served, by
depositing an envelope containing the above documents in the United States mail properly
addressed to each of them and with first-class postage prepaid.
The names and addresses of those served are as follows:
John H. Doud III, Esquire
19 W. Cold Spring Lane
Baltimore, MD 21210
Counsel for Kevin L. McIntyre

Vn. .,.

Ronald E. McIntyre
9818 Amsterdam Street
Lorton, VA 22079
Carolyn E. Wilson
350 Blount Road
Hephzibah, GA 30815
I declare under penalty of peijury that the foregoing is true and correct.
Executed on April 16,2021

~r~

N V. McINTtRE
4748 Alhambra Avenue
Baltimore, MD 21212
Email: karvmac@vahoo.com
Tel: (443) 904-5930

i

Additional material
from this filing is
available in the
Clerk's Office.

